                                     Documentation of Oral Communications From Registered Lobbyist
                                         Concerning Policy Matters Related to the Recovery Act
This notification is made pursuant to Sections 3(d)-(e) of the Presidential Memorandum For Heads of Executive Departments and Agencies dated March 20,
2009, entitled Ensuring Responsible Spending of Recovery Act Funds. At the outset of the oral communications concerning the Recovery Act, individuals or
parties appearing or communicating were asked if any of them were lobbyists registered under the Lobbying Disclosure Act. The registered lobbyists
appearing or communicating were informed that DOT OIG officials would discuss policy matters only and that DOT OIG employees would have no oral
communications concerning particular projects, applications, or applicants for funding under the Recovery Act. The registered lobbyists were informed that
they could provide written communications concerning particular projects, applications, or applicants for funding under the Recovery Act, which we would
publicly post on our Recovery Act webpage.

    Date               Time                                Registered Lobbyists         DOT OIG Employees
                   (start to end)                          (name and employer)           (names and titles)
 05/27/09          10:00 AM to             Ed Welch, Legislative Director, Brenda James, Program Director
                   10:45 AM                Passenger Vessel Association    Anita Visser, Senior Analyst
                                           (PVA)



                                                    Short Description of Substance of Oral Communications
 When scheduled (if unscheduled, state “Unscheduled”)
  Meeting scheduled via e-mail 05/26/09

 In-person or telephonic communication (if other, describe)
 Meeting via telephone from DOT OIG Headquarters.

 OIG Audit or project number (w/ hyperlink if available)
   ARRA Agency Scan - Phase II 09U3002M000

 DOT Mode and Program
   DOT/OIG/JA-40
   Program: Maritime Administration (MARAD) Small Shipyard Grants Program (SSGP)
 Subjects raised during oral communications and concise summary
 OIG discussed with PVA the nature of its membership, some members' experiences with MARAD's administration of the
 FY 2008 program, the state of the shipyard and maritime industries, and the type of equipment shipyards might
 purchase under the SSGP.                                #

      Template A
      Page 1
